City of Boston
Mayor Martin J. Walsh
Law

 

September 28, 2020

VIA E-MAIL & PRIORITY MAIL EXPRESS
Clerk’s Office

Supreme Court of the United States

1 First Street, NE

Washington, DC 20543

Attn: dbickell@supremecourt.gov

 

Re: Christopher Castagna, et al. v. Harry Jean, et al.
Supreme Court of the United States No. 20-253

Dear Clerk:

Pursuant to Supreme Court Rule 30.4, please let this letter serve as a motion for an extension
of time for the Respondents, Harry Jean, Keith Kaplan, and Daran Edwards, to file a Brief in
Opposition in this matter. The Respondents respectfully request an additional 30 days, up to and
including November 2, 2020, to file their Brief In Opposition. In support of this motion, the
Respondents state as follows:

1. The Brief in Opposition in this matter is currently due on October 1, 2020.

2. Undersigned counsel, Nicole M. O’Connor, of the City of Boston Law Department, is
representing the Respondents in this matter. Ms. O’Connor is not currently a member of the bar of
this Court, though she has applied for admission. Ms. O’Connor is scheduled to be admitted to this
Court on October 5, 2020.

3. Additionally, due to Ms. O’Connor’s current case load and work from home status, an
additional 30 days is necessary to draft a thoughtful response on behalf of the Respondents.

Accordingly, for these reasons, the Respondents request an additional 30 days, up to and
including November 2, 2020, to file their Brief in Opposition in this matter. A certificate of service
is enclosed herewith.

Very truly yours,

Nicole M. O’Connor

Senior Assistant Corporation Counsel
City of Boston Law Department

City Hall, Room 615

Boston, MA 02201

617-635-4039
nicole.oconnor@boston.gov

Enclosure
ce: Paul J. Klehm, Esq.
James B. Krasnoo, Es

ONE CITY HALL BRRMAAIRARTS" PANRRAPe RY EOSTON.COV
No. 20-253

In the
Supreme Court of the United States

CHRISTOPHER CASTAGNA; GAVIN CASTAGNA
Petitioners,
ve.

Harry JEAN; KEITH KAPLAN; DARAN EDWARDS,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit

PROOF OF SERVICE

I, Nicole M, O’Connor, counsel for Respondents, Harry Jean, Keith Kaplan, and Daran
Edwards, hereby certify that on the 28" day of September, 2020, I caused to be served one (1) copy
of the Respondents’ Letter for Enlargement of Time to File Brief In Opposition in the above
referenced case by United States Postal Service, Priority Mail Express Overnight, upon the counsel
for the Petitioners as listed below:

Paul J. Klehm, Esq.

James B. Krasnoo, Esq.
Benjamin L. Falkner, Esq.
Krasnoo, Klehm & Falkner LLP
28 Andover Street, Suite 240
Andover, MA 01810

(978) 475-9955
pklehm@kff-attorneys.com

Counsel for Petitioners

Additionally, an electronic version was transmitted to counsel for Petitioners at the following
email address:

pklehm@kff-attorneys.com

I further certify that all parties required to be served have been served.
py 2 In. o CGme——
Nicole M. O’Connor
Senior Assistant Corporation Counsel
City of Boston Law Department
City Hall, Room 615
Boston, MA 02201
(617) 635-4039
nicole.oconnor@boston.gov

Counsel for Respondents
Harry Jean, Keith Kaplan, and
Daran Edwards
